AUDIT OF OFFICE OF JUSTICE PROGRAMS

  SOUTHWEST BORDER PROSECUTION

  INITIATIVE FUNDING RECEIVED BY

      HUDSPETH COUNTY, TEXAS


        U.S. Department of Justice

      Office of the Inspector General

               Audit Division



   Audit Report Number GR-60-11-003

            November 2010

      AUDIT OF OFFICE OF JUSTICE PROGRAMS 

SOUTHWEST BORDER PROSECUTION INITIATIVE FUNDING

                  RECEIVED BY

            HUDSPETH COUNTY, TEXAS


                        EXECUTIVE SUMMARY



       The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of the Southwest Border Prosecution
Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP)
to Hudspeth County, Texas. From fiscal years (FYs) 2002 through 2008,
Hudspeth County received SWBPI funding totaling $6,190,854 on a pro-rata
basis. Hudspeth County has also requested but not yet received $177,737
in SWBPI funding for FY 2009.

      Many drug and other criminal cases occurring along the southwest
border are initiated by a federal law enforcement agency or federal
multi-jurisdictional task forces, e.g., High Intensity Drug Trafficking Areas
(HIDTA) and Organized Crime Drug Enforcement Task Forces (OCDETF).
Many U.S. Attorneys have developed prosecution guidelines that govern the
most common violations of federal law. These prosecution guidelines are
used by law enforcement agencies to determine whether to file a case in
federal, state, or county court. As a result, many federally initiated cases
occurring near the southwest border are referred to the state or county for
prosecution.

      The SWBPI was established in FY 2002, when Congress began
appropriating funds to reimburse state, county, parish, tribal, and municipal
governments for costs associated with the prosecution of criminal cases
declined by local U.S. Attorneys’ offices. Reimbursements received from
SWBPI funding may be used by applicant jurisdictions for any purpose not
otherwise prohibited by federal law. For FY 2010, Congress appropriated
$31 million for the SWBPI.

      The objective of our audit was to determine if the SWBPI
reimbursements received by Hudspeth County were allowable, supported,
and in accordance with applicable laws, regulations, guidelines, and terms
and conditions of the SWBPI.
       We found that Hudspeth County claimed and was reimbursed for cases
that were ineligible under the SWBPI guidelines. Based on the deficiencies
listed below, we identified questioned costs totaling $479,595 and funds to
better use totaling $900. 1 Specifically, we found cases that were:
(1) investigated or prosecuted concurrently, (2) claimed under the both
prosecution and pre-trial detention category that did not meet the
requirements for pre-trial detention, (3) not federally initiated, (4) submitted
in the wrong quarter, (5) missing case file information, (6) claimed using a
pre-trial detention rate that exceeded the approved federal rate, (7) claimed
for detention reimbursement after disposition, (8) submitted in the wrong
reimbursement category, and (9) not supported by the master case listing.

     These issues are discussed in detail in the Findings and
Recommendations section of the report. Our audit Objectives, Scope, and
Methodology appear in Appendix I.




       1
         The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs. However, not all findings are dollar-related. See
Appendix II for a breakdown of our dollar-related findings and for definitions of questioned
costs and funds to better use.


                                            - ii ­
                                TABLE OF CONTENTS


INTRODUCTION .................................................................................1


     Background...................................................................................1


FINDINGS AND RECOMMENDATIONS.................................................7


     Case Eligibility ...............................................................................7

     Accuracy of Reimbursements...........................................................9

     Recommendations ....................................................................... 10


APPENDIX I           - AUDIT OBJECTIVES, SCOPE, AND 

                        METHODOLOGY...................................................12

APPENDIX II          - SCHEDULE OF DOLLAR-RELATED

                        FINDINGS...........................................................13

APPENDIX III - HUDSPETH COUNTY DETAILS OF

                QUESTIONED COSTS ...........................................15

APPENDIX IV          - HUDSPETH COUNTY DETAILS OF 

                        FUNDS TO BETTER USE .......................................22

APPENDIX V           - HUDSPETH COUNTY RESPONSE TO THE

                        DRAFT REPORT ...................................................23

APPENDIX VI          - OFFICE OF JUSTICE PROGRAMS RESPONSE

                        TO THE DRAFT REPORT.......................................25

APPENDIX VII - ANALYSIS AND SUMMARY OF ACTIONS

                NECESSARY TO CLOSE REPORT...........................29

      AUDIT OF OFFICE OF JUSTICE PROGRAMS 

SOUTHWEST BORDER PROSECUTION INITIATIVE FUNDING

                  RECEIVED BY

            HUDSPETH COUNTY, TEXAS


                            INTRODUCTION



      The Office of the Inspector General, Audit Division, has completed an
audit and issued a report on the Southwest Border Prosecution Initiative
(SWBPI) funding awarded by the U.S. Department of Justice, Office of
Justice Programs (OJP) to Hudspeth County, Texas. The objective of the
audit was to determine whether the SWBPI reimbursements received by
Hudspeth County were allowable, supported, and in accordance with
applicable laws, regulations, and terms and conditions of the SWBPI
guidelines.

Background

       Prior to 1994, most southwest border counties in the states of Arizona,
California, New Mexico, and Texas did not prosecute drug cases resulting
from the illegal importation of controlled substances at U.S. borders.
Typically, these cases were prosecuted exclusively by U.S. Attorneys in
federal courts. However, in late 1994, U.S. Attorneys, and state and local
prosecutors established partnerships through which the state and local
governments began prosecuting federally referred criminal cases. These
partnerships allowed the U.S. Attorneys to focus on addressing major drug
trafficking organizations and prosecuting deported criminal aliens who
returned to the U.S. illegally. As state and local governments began to
prosecute a growing number of federally referred criminal cases, the
partnerships led to an increased financial and resource burden. Congress
recognized this problem and began appropriating funds under the SWBPI in
fiscal year (FY) 2002, to support state and local prosecutions along the
southwest border.

       For FY 2010, Congress appropriated $31 million in funding for the
SWBPI, Pub. L. No. 111-117 (2010), to reimburse state, county, parish,
tribal, or municipal governments for costs associated with the prosecution of
criminal cases declined by local U.S. Attorneys’ offices. Reimbursements
received from the SWBPI funding may be used by applicant jurisdictions for
any purpose not otherwise prohibited by federal law; however, the direct
support and enhancement of jurisdictions’ prosecutorial and detention
services are encouraged.
      For cases disposed of between FY 2002 and the second quarter of FY
2008, each eligible case submitted for prosecution or pre-trial detention
services only received the following maximum reimbursement, based upon
the length of disposition and the availability of funds:

  •   $1,250 for each case of 1 to 15 days,

  •   $2,500 for each case of 16 to 30 days,

  •   $3,750 for each case of 31 to 90 days, and

  •   $5,000 for each case over 90 days.

      For cases disposed of between FY 2002 and the second quarter of FY
2008, each eligible case submitted for both prosecution and pre-trial
detention services submitted for reimbursement, received the following
maximum reimbursement based upon the length of disposition and the
availability of funds:

  •   $2,500 for each case of 1 to 15 days,

  •   $5,000 for each case of 16 to 30 days,

  •   $7,500 for each case of 31 to 90 days, and

  •   $10,000 for each case over 90 days.

      For cases disposed between FY 2002 and the second quarter of FY
2008, the disposition period of a case with both prosecution and pre-trial
detention services was calculated using the prosecution disposition period.
For cases disposed from FYs 2002 through 2006, to meet the pre-trial
detention services requirement, the defendant must be incarcerated
overnight, i.e., from one calendar day to the next. For cases disposed after
FY 2006, to meet the pre-trial detention services requirement, the defendant
must be detained for at least 24 hours.

       For cases disposed between the third and fourth quarter of FY 2008,
jurisdictions may only receive reimbursements for the actual number of
prosecutor hours charged to the case and the number of days the defendant
was detained prior to the disposition of the case. Prosecutors’ salaries
charged to the case are based on the average hourly rate for the county’s
prosecutors and cannot include fringe benefits. Detention reimbursements
are based on the number of days the defendant was detained prior to the



                                    -2­
disposition and are calculated using the published federal detention per diem
rate for the jurisdiction.

       For cases disposed in FY 2009, jurisdictions may receive
reimbursements based on the personnel costs associated with prosecuting a
case, including the personnel costs for prosecutors, paralegals, judges,
judicial staff, public defenders, clerical staff and indigent screening
personnel. The allowable costs are then allocated to each case based on the
percentage of eligible SWBPI cases prosecuted by the jurisdiction out of the
total number of cases prosecuted during the period. This percentage is
calculated separately for misdemeanor cases and felony cases and then is
multiplied by the total allowable misdemeanor and felony costs to arrive at
total allowable prosecution costs per case. Detention reimbursements are
still based on the number of days the defendant was detained prior to the
disposition and are calculated using the published federal detention per diem
rate for the jurisdiction.

      Pursuant to the SWBPI guidelines, when reimbursement requests
exceed available funding, applicants receive funds on a uniform, pro-rata
basis. The following table shows the pro-rata reimbursement percentages
for Hudspeth County. No SWBPI funds were available for the fourth quarter
of FY 2004.




                                    -3­
            PRO-RATA REIMBURSEMENT BASIS TO HUDSPETH COUNTY
     REPORTING                                           PERCENTAGE
                           START DATE         END DATE
       PERIOD                                            REIMBURSED
  FY02, All Quarters         10/01/01         9/30/02        100%
   FY03, 1st and 2nd
                             10/01/02         3/31/03        100%
      Quarters
  FY03, 3rd Quarter          04/01/03         06/30/03       100%
  FY03, 4th Quarter          07/01/03         09/30/03       100%
  FY04, 1st Quarter          10/01/03         12/31/03       100%
  FY04, 2nd Quarter          01/01/04         03/31/04       100%
  FY04, 3rd Quarter          04/01/04         06/30/04     81.00%
  FY05, 1st Quarter          10/01/04         12/31/04     49.29%
  FY05, 2nd Quarter          01/01/05         03/31/05     44.08%
  FY05, 3rd Quarter          04/01/05         06/30/05     47.40%
  FY05, 4th Quarter          07/01/05         09/30/05     50.16%
  FY06, 1st Quarter          10/01/05         12/31/05     53.18%
  FY06, 2nd Quarter          01/01/06         03/31/06     47.61%
  FY06, 3rd Quarter          04/01/06         06/30/06     43.09%
  FY06, 4th Quarter          07/01/06         09/30/06     44.05%
  FY07, 1st Quarter          10/01/06         12/31/06     52.34%
  FY07, 2nd Quarter          01/01/07         03/31/07     52.45%
  FY07, 3rd Quarter          04/01/07         06/30/07     49.03%
  FY07, 4th Quarter          07/01/07         09/30/07     57.26%
  FY08, 1st Quarter          10/01/07         12/31/07     86.97%
  FY08, 2nd Quarter          01/01/08         03/31/08     71.63%
  FY08, 3rd Quarter          04/01/08         06/30/08    111.05%
  FY08, 4th Quarter          07/01/08         09/30/08    109.15%
 Source: Office of Justice Programs

     As shown in the following table, Hudspeth County received
reimbursements from SWBPI funds totaling $6,190,854 from FYs 2002
through 2008.




                                        -4­
                       REIMBURSEMENTS TO HUDSPETH COUNTY 1
                            START                          AMOUNT             AMOUNT
  REPORTING PERIOD                       END DATE
                             DATE                         REQUESTED         REIMBURSED
  FY02, all Quarters       10/01/01       09/30/02        $ 1,527,500       $ 1,527,500
    FY03, 1st & 2nd
                           10/01/02       03/31/03             482,500           482,500
      Quarters
  FY03, 3rd Quarter        04/01/03       06/30/03             263,750          263,750
  FY03, 4th Quarter        07/01/03       09/30/03             421,250          421,250
  FY04, 1st Quarter        10/01/03       12/31/03             353,750          353,750
  FY04, 2nd Quarter        01/01/04       03/31/04             410,000          410,000
  FY04, 3rd Quarter        04/01/04       06/30/04             587,500          475,875
  FY05, 1st Quarter        10/01/04       12/31/04             362,500          178,666
  FY05, 2nd Quarter        01/01/05       03/31/05             505,000          222,607
  FY05, 3rd Quarter        04/01/05       06/30/05             380,000          180,125
  FY05, 4th Quarter        07/01/05       09/30/05             427,500          214,420
  FY06, 1st Quarter        10/01/05       12/31/05             335,000          178,158
  FY06, 2nd Quarter        01/01/06       03/31/06             160,000           76,183
  FY06, 3rd Quarter        04/01/06       06/30/06             237,500          102,327
  FY06, 4th Quarter        07/01/06       09/30/06             287,500          126,637
  FY07, 1st Quarter        10/01/06       12/31/06             217,500          113,829
  FY07, 2nd Quarter        01/01/07       03/31/07             242,500          127,186
  FY07, 3rd Quarter        04/01/07       06/30/07             215,000          105,422
  FY07, 4th Quarter        07/01/07       09/30/07             232,500          133,139
  FY08, 1st Quarter        10/01/07       12/31/07             302,500          263,088
  FY08, 2nd Quarter        01/01/08       03/31/08             210,000          150,414
  FY08, 3rd Quarter        04/01/08       06/30/08              60,014           66,645
  FY08, 4th Quarter        07/01/08       09/30/08              15,926           17,383
 TOTAL                                                                      $6,190,854
Source: Office of Justice Programs

      Additionally, as shown in the following table, Hudspeth County has
requested, but not yet received reimbursements totaling $177,737 for FY
2009.




       1
          Throughout the report, the differences in the total amounts are due to rounding, in
that the sum of individual numbers prior to rounding reported may differ from the sum of the
individual numbers rounded.


                                            -5­
                REIMBURSEMENTS REQUESTED BY HUDSPETH COUNTY
    REPORTING            START                   AMOUNT       AMOUNT
                                     END DATE
     PERIOD              DATE                   REQUESTED   REIMBURSED
                                                              Not Yet
 FY09, 1st Quarter     10/01/08      12/31/08    $ 47,429
                                                            Determined
                                                              Not Yet
 FY09, 2nd Quarter     01/01/09      03/31/09      34,869
                                                            Determined
                                                              Not Yet
 FY09, 3rd Quarter     04/01/09      06/30/09      38,217
                                                            Determined
                                                              Not Yet
 FY09, 4th Quarter     07/01/09      09/30/09      57,221
                                                            Determined
 Total                                          $177,737       N/A
Source: Office of Justice Programs




                                         -6­
      FINDINGS AND RECOMMENDATIONS


      We found that Hudspeth County claimed and was reimbursed for
      cases that were ineligible under the SWBPI guidelines.
      Specifically, we found cases that were: (1) investigated or
      prosecuted concurrently, (2) claimed under the both prosecution
      and pre-trial detention category that did not meet the
      requirements for pre-trial detention, (3) not federally initiated,
      (4) submitted in the wrong quarter, (5) missing case file
      information, (6) claimed using a pre-trial detention rate that
      exceeded the approved federal rate, (7) claimed for detention
      reimbursement after disposition, (8) submitted in the wrong
      reimbursement category, and (9) not supported by the master
      case listing. As a result, we identified questioned costs totaling
      $479,595 and funds to better use totaling $900.


Case Eligibility

       Pursuant to the SWBPI guidelines, an eligible case is any federally
initiated criminal case that the U.S. Attorney declined to prosecute and
referred to the state or local government for prosecution, which was
prosecuted by the state or local government and disposed of during an
eligible reporting period. The SWBPI guidelines define federally initiated as a
case resulting from a criminal investigation or an arrest involving federal law
enforcement authorities for a potential violation of federal criminal law. This
may include investigations resulting from multi-jurisdictional task forces,
e.g., High Intensity Drug Trafficking Areas (HIDTA) and Organized Crime
Drug Enforcement Task Forces (OCDETF). The SWBPI guidelines further
state that, “referred cases are eligible regardless of whether the case was
formally declined and referred by a U.S. Attorney, or through a blanket
federal declination-referral policy, an accepted federal law enforcement
practice, or by federal prosecutorial discretion.” Federally referred cases
that are declined and not prosecuted by the state or local government are
ineligible for reimbursement.

     We analyzed the 1,093 cases submitted for reimbursement by
Hudspeth County to determine whether the cases were eligible for
reimbursement under the requirements of the SWBPI guidelines.

      Based on our review, we found that Hudspeth County received SWBPI
funds totaling $479,595 for 151 cases that were not eligible for
reimbursement pursuant to the SWBPI guidelines. Additionally, Hudspeth


                                     -7­
County requested but had not yet received SWBPI funds totaling $900 for 23
cases that were not eligible for detention reimbursements, as described
below. A detailed listing of the cases claimed by Hudspeth County that were
not eligible for reimbursement is provided in Appendix III. Specifically, we
found that Hudspeth County: 2

   •	 Received unallowable reimbursements totaling $240,574 for 37 cases
      that were investigated or prosecuted during concurrent periods of time
      with cases involving the same defendant that were also submitted for
      reimbursement.

   •	 Received excess reimbursements totaling $163,104 for 70 cases that
      were submitted under the both prosecution and pre-trial detention
      category that did not meet the requirements for pre-trial detention.

   •	 Received unallowable reimbursements totaling $33,142 for seven
      cases that were not federally initiated.

   •	 Received unallowable reimbursements totaling $16,168 for four cases
      that were submitted in the wrong quarter.

   •	 Received unallowable reimbursements totaling $10,726 for two cases
      for which supporting case information could not be located.

   •	 Received excess reimbursements totaling $5,440 for 27 cases, for
      which the detention rate claim exceeded the approved federal
      detention rate for the county.

   •	 Received unallowable reimbursements totaling $2,622 for one case
      that included incarceration costs after the case was disposed.

   •	 Received unallowable reimbursements totaling $2,500 for two cases
      that cases that were erroneously submitted in the wrong
      reimbursement category.

   •	 Requested, but not yet received, reimbursements totaling $900 for
      23 cases that were claimed under the both prosecution and pre-trial
      detention category that did not meet the requirements for pre-trial
      detention.



       2
          The number of unallowable cases detailed includes cases that have no questioned
costs because the cases were questioned previously, based on other SWBPI reimbursement
criteria.


                                           -8­
Accuracy of Reimbursements

      Hudspeth County requests reimbursements from SWBPI funds through
an on-line application available on the Bureau of Justice Assistance website.
Pursuant to the SWBPI guidelines, for FYs 2002 through 2007, eligible cases
were reimbursed using a uniform payment per case schedule based on the
length of disposition, which is calculated from the date of the suspect’s
arrest through case resolution. Resolution of the case is defined as
dismissal, conviction, or plea.

       We reviewed the reimbursement requests submitted by Hudspeth
County for FYs 2002 through 2007, to determine if the number of cases
claimed for each disposition category was supported by the detailed case
listings obtained during fieldwork. 3 Based on our review, we determined
that the reimbursement requests were not always supported by the master
case listing resulting in excess reimbursements totaling $5,318, as shown in
the following table.




       3
          We did not reconcile cases submitted to OJP after FY 2007, because starting in the
first quarter of FY 2008, SWBPI recipients were required to provide OJP a detailed listing of
cases for which they were requesting reimbursement. Prior to the third quarter of FY 2008,
SWBPI recipients were only required to provide OJP the number of cases for which they
were requesting reimbursement for each disposition category.


                                            -9­
                       UNSUPPORTED CASES CLAIMED FOR
              REIMBURSEMENT FOR THE QUARTER ENDED DECEMBER 31, 2005
                                                              UNSUPPORTED
        DISPOSITION     CASES      ACTUAL                     QUESTIONED
        CATEGORIES     CLAIMED     CASES         DIFFERENCE      COSTS
       1 – 15 Days        0           0               0              $0
       16 – 30 Days       0           0               0               0
       31 – 90 Days       6           6               0               0
       91 + Days         29          28               1           5,318
       TOTAL EXCESS REIMBURSEMENTS                              $5,318
      Source: Hudspeth County and OJP

Recommendations

         We recommend that OJP:

1.	      Remedy the $240,574 in questioned costs received by Hudspeth
         County for 37 cases that were investigated or prosecuted during
         concurrent periods of time with cases involving the same defendant
         that were also submitted for reimbursement.

2.	      Remedy the $163,104 in questioned costs received by Hudspeth
         County for 70 cases that were submitted under the both prosecution
         and pre-trial detention category that did not meet the requirements
         for pre-trial detention.

3.	      Remedy the $33,142 in questioned costs received by Hudspeth
         County for seven cases that were not federally initiated.

4.	      Remedy the $16,168 in questioned costs received by Hudspeth
         County for four cases that were submitted in the wrong quarter.

5.	      Remedy the $10,726 in questioned costs received by Hudspeth
         County for two cases for which supporting case information could not
         be located.

6.	      Remedy the $5,440 in questioned costs received by Hudspeth County
         for 27 cases for which the detention rate claim exceeded the
         approved federal detention rate for the county.

7.	      Remedy the $5,318 in questioned costs received by Hudspeth County
         related to the case claimed that was not supported by the master
         case list.




                                        - 10 ­
8.	    Remedy the $2,622 in questioned costs received by Hudspeth County
       for one case that included incarceration costs after the case was
       disposed.

9.	    Remedy the $2,500 in questioned costs received by Hudspeth County
       for two cases that cases that were erroneously submitted in the
       wrong reimbursement category.

10.	   Remedy the $900 in funds to better use requested, but not yet
       received by Hudspeth County for 23 cases that were claimed under
       the both prosecution and pre-trial detention category that did not
       meet the requirements for pre-trial detention.




                                   - 11 ­
                                                               APPENDIX I


      AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY


      The objective of the audit was to determine whether reimbursements
claimed for costs under the SWBPI are allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the SWBPI guidelines.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. Our
audit concentrated on, but was not limited to, the inception of the
reimbursements through September 30, 2009.

      We tested compliance with what we consider to be the important
conditions of the reimbursements under the SWBPI. Unless otherwise stated
in our report, the criteria we audit against are contained in the SWBPI
guidelines. We tested Hudspeth County SWBPI activities in case eligibility
and compliance with regulations.

      In addition, our testing was conducted by judgmentally selecting a
sample of cases submitted for reimbursement. Judgmental sampling design
was applied to obtain broad exposure to numerous facets of the
reimbursements reviewed. This non-statistical sample design does not allow
projection of the test results to all reimbursements received.

       We did not test internal controls for Hudspeth County as a whole. The
Single Audit Report for Hudspeth County was prepared under the provisions
of Office of Management and Budget Circular A-133 for the fiscal year ended
September 30, 2009. We reviewed the independent auditor's assessment to
identify internal control weaknesses and significant non-compliance issues
related to Hudspeth County or federal programs. The auditor’s assessment
disclosed no material control weaknesses or significant non-compliance
issues related to the SWBPI. In addition, we performed testing of source
documents to assess the accuracy of reimbursement requests; however, we
did not test the reliability of the financial management system as a whole.




                                   - 12 ­
                                                                         APPENDIX II


             SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS 1                                                       AMOUNT     PAGE

Unallowable cases that were prosecuted concurrently.
                                                                         $240,574    8
Excess reimbursements for cases that were erroneously claimed as
   both prosecution and pre-trial detention that did not meet the
   pre trial detention requirement.                                       163,104
                                                                                     8
Unallowable cases that were not federally initiated.
                                                                           33,142    8
Unallowable cases that were submitted in the wrong quarter.
                                                                           16,168    8
Unsupported reimbursements for cases for which the supporting case
  file information could not be located.
                                                                           10,726    8
Excess reimbursements for cases that were claimed with an inflated
   detention rate.                                                          5,440    8

Unsupported reimbursements for cases that were not supported by the
  master case list.                                                         5,318    9

Unallowable cases for which incarceration costs were claimed after the
  case was disposed.
                                                                            2,622    8
Excess reimbursements for cases that were submitted under the wrong
   reimbursement category.                                                  2,500    9

                     TOTAL QUESTIONED COSTS
                                                                         $479,595




        1
          Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.


                                            - 13 ­
                                                                         APPENDIX II


FUNDS TO BETTER USE 2

Excess reimbursements for cases that were erroneously claimed as both
   prosecution and pre-trial detention that did not meet the pre-trial
   detention requirement.
                                                                             $900    9
                  TOTAL FUNDS TO BETTER USE
                                                                            $900
TOTAL DOLLAR-RELATED FINDINGS                                            $480,495




       2
         Funds to Better Use are requested expenditures that do not comply with legal,
regulatory or contractual requirements, or are not supported by adequate documentation at
the time of the audit, or are unnecessary or unreasonable. Funds to better use may be
remedied by not approving or disallowing future payments or the provision of supporting
documentation.


                                          - 14 ­
                                                                          APPENDIX III


                         HUDSPETH COUNTY

                    DETAILS OF QUESTIONED COSTS


                  CASES THAT WERE CONCURRENTLY PROSECUTED 1
                   QUARTER        REIMBURSEMENT         PROSECUTION         AMOUNT
    CASE NO.
                  SUBMITTED          CATEGORY           ONLY OR BOTH       QUESTIONED
   HU-3117-A        FY04-1          31-90 Days              Both              $7,500
    HU-3078         FY04-1           91+ Days               Both              10,000
    HU-3103         FY04-1          31-90 Days              Both               7,500
    HU-3117         FY04-1          31-90 Days              Both               7,500
    HU-3123         FY04-1          16-30 Days              Both               5,000
   HU3147-B         FY04-3           91+ Days               Both               8,100
   HU-3147-A        FY04-3           91+ Days               Both               8,100
    HU-6820         FY03-4           91+ Days            Pros. Only            5,000
    HU-2535       FY03-1&2           91+ Days               Both              10,000
    HU-6703         FY04-3           91+ Days               Both               8,100
    HU-3204         FY04-3          16-30 Days              Both               4,050
   HU-3203-B        FY04-3          31-90 Days              Both               6,075
    HU-2957         FY03-4           91+ Days               Both              10,000
    HU3179          FY05-2           91+ Days               Both               4,408
    HU3008A         FY05-2           91+ Days               Both               4,408
    HU3179          FY05-2           91+ Days               Both               4,408
   HU2838-B         FY03-4          31-90 Days              Both               7,500
    CR-7510         FY08-2           91+ Days               Both               7,163
    CR-7511         FY08-2           91+ Days               Both               7,163
   HU-3041-A        FY03-4           91+ Days               Both              10,000
   HU-2838-B        FY03-4           91+ Days            Pros. Only            5,000
   HU-3113-D        FY04-3           91+ Days               Both               8,100
   HU-3041-B        FY03-4           91+ Days               Both              10,000
    HU3494          FY06-3           91+ Days               Both               4,309
    HU-3101         FY04-1          31-90 Days              Both               7,500
    HU3391A         FY05-3           91+ Days               Both               4,740
    HU3159A         FY05-3           91+ Days               Both               4,740
    HU3158          FY05-3           91+ Days               Both               4,740
    HU2717          FY05-2           91+ Days               Both                   0
    HU3266          FY05-4           91+ Days               Both               5,016
    CR-7001         FY06-1           91+ Days               Both               5,318
    HU3493          FY06-3           91+ Days               Both               4,309
    HU-6702         FY04-3           91+ Days               Both               8,100
    HU3244          FY05-2           91+ Days               Both                   0
    HU-3052         FY04-3           91+ Days               Both               8,100
    CR-7079         FY05-3           91+ Days               Both               4,740

       1
         The number of unallowable cases detailed throughout this report includes cases that
have $0 in questioned costs because the cases were questioned previously, based on other
SWBPI reimbursement criteria.


                                          - 15 ­
                                                      APPENDIX III


            QUARTER    REIMBURSEMENT   PROSECUTION      AMOUNT
CASE NO.
           SUBMITTED      CATEGORY     ONLY OR BOTH    QUESTIONED
 HU3287      FY05-2       91+ Days         Both                0
 HU3045      FY05-2       91+ Days         Both                0
 HU3391C     FY05-3       91+ Days         Both            4,740
 HU3279      FY05-2       91+ Days         Both                0
 HU3391B     FY05-3       91+ Days         Both            4,740
 HU3371      FY05-2       91+ Days         Both            4,408
Total                                                  $240,574




                            - 16 ­
                                                     APPENDIX III


              CASES WITH UNALLOWABLE DETENTION
            QUARTER    REIMBURSEMENT     BOOKING     AMOUNT
CASE NO.
           SUBMITTED      CATEGORY          DATE    QUESTIONED
 HU3376      FY05-3      31-90 Days      3/3/2005       $1,778
 HU3296      FY05-2       91+ Days       9/9/2004        2,204
 HU2982      FY05-2       91+ Days      1/27/2003        2,204
HU3730A      FY07-3       91+ Days        2/16/07        2,452
HU3730B      FY07-3       91+ Days        2/16/07        2,452
 HU3550      FY07-3       91+ Days        4/30/06        2,452
 HU3533      FY07-3       91+ Days        1/18/06        2,452
 HU3478      FY07-3       91+ Days       10/11/05        2,452
HU2731A      FY07-3       91+ Days        10/4/01        2,452
 CR-7280     FY07-3       91+ Days      5/26/2006        2,452
 CR-7363     FY07-3       91+ Days          N/A          2,452
HU3295A      FY05-1       91+ Days      8/26/2004        2,464
 CR-6887     FY05-4       91+ Days      7/23/2003        2,508
HU3541B      FY07-1       91+ Days         4/9/06        2,617
HU3677A      FY07-1       91+ Days        12/6/05        2,617
 HU3676      FY07-1       91+ Days        6/19/06        2,617
 HU3652      FY07-1       91+ Days        6/15/06        2,617
 HU3643      FY07-1       91+ Days       5/15/06         2,617
 HU3504      FY07-1       91+ Days         3/1/06        2,617
 HU3687      FY07-2       91+ Days        9/18/06        2,622
 HU3683      FY07-2       91+ Days        9/10/06        2,622
HU3671B      FY07-2       91+ Days        8/24/06        2,622
HU3671A      FY07-2       91+ Days        8/24/06        2,622
 HU3681      FY07-2       91+ Days        8/13/06        2,622
 HU3711      FY07-2       91+ Days        9/7/06         2,622
 HU3694      FY07-2       91+ Days        7/5/06         2,622
HU3542-B     FY07-4       91+ Days      4/11/2006        2,863
 HU3542      FY07-4       91+ Days      4/11/2006        2,863
 HU3515      FY07-4       91+ Days      1/22/2006        2,863
 HU3736      FY07-4       91+ Days     11/25/2006        2,863
 HU3716      FY07-4       91+ Days     12/15/2006        2,863
 HU3732      FY07-4       91+ Days       3/5/2007        2,863
 CR-7386     FY07-4       91+ Days     12/28/2006        2,863
 HU3917      FY08-2       91+ Days          N/A          3,581
 HU3932      FY08-2       91+ Days      7/12/2007        3,581
 HU3951      FY08-2       91+ Days      8/30/2007        3,581
HU3745-B     FY08-2       91+ Days      3/14/2007        3,581
 HU3953      FY08-2       91+ Days       7/1/2007        3,581
 CR-7512     FY08-2       91+ Days      4/25/2007        3,581
 CR-7513     FY08-2       91+ Days      4/24/2007        3,581
 CR-7514     FY08-2       91+ Days      4/25/2007        3,581
HU-3117      FY04-1      31-90 Days    10/17/2003            0
 HU3914      FY08-1       91+ Days      4/15/2007        4,349



                             - 17 ­
                                                      APPENDIX III


             QUARTER    REIMBURSEMENT     BOOKING     AMOUNT
CASE NO.
            SUBMITTED      CATEGORY         DATE     QUESTIONED
 HU3915       FY08-1       91+ Days      3/14/2007        4,349
 HU3926       FY08-1       91+ Days      6/29/2007        4,349
 HU3930       FY08-1       91+ Days      4/19/2007        4,349
HU-2934-A   FY03-1&2       91+ Days      7/28/2002        5,000
HU-2836-B   FY03-1&2       91+ Days       5/6/2002        5,000
 HU-6627      FY03-3       91+ Days      2/10/2002        5,000
 HU2997       FY04-1       91+ Days      2/12/2003        5,000
 HU3109       FY04-2       91+ Days      9/17/2003        5,000
HU3150-A      FY04-2       91+ Days     10/22/2003        5,000
HU4046-B      FY08-3         N/A         4/23/2008        1,175
 HU3432       FY08-3         N/A          6/5/2005          153
 HU3961       FY08-3         N/A        10/18/2007          102
HU3992-A      FY08-3         N/A          6/4/2007           51
HU3946-A      FY08-3         N/A         5/31/2007           51
HU2711-B      FY08-3         N/A          8/3/2001           51
HU3919-B      FY08-3         N/A         5/29/2007           51
 HU3972       FY08-3         N/A         11/2/2007           51
 HU3731       FY08-3         N/A         12/7/2006           51
 CR-7544      FY08-3         N/A          6/6/2007           50
 CR-7546      FY08-3         N/A          6/7/2007           50
 CR-7547      FY08-3         N/A          6/7/2007           50
 CR-7559      FY08-3         N/A         5/20/2007           50
HU4057-A      FY08-4         N/A          3/6/2008           50
 HU4056       FY08-4         N/A         2/19/2008           50
 HU4015       FY08-4         N/A         1/14/2008           50
 HU3705       FY08-4         N/A        11/16/2006           50
 CR-7589      FY08-4         N/A         6/17/2007           50
Total                                                 $163,104




                              - 18 ­
                                                                    APPENDIX III


                     CASES THAT WERE NOT FEDERALLY INITIATED
 CASE      INITIATING             REIMBURSEMENT    PROSECUTION          AMOUNT
                        OFFENSE
 NO .        AGENCY                  CATEGORY      ONLY OR BOTH        QUESTIONED
              Texas
            Dept. of
HU2915                    N/A       91+ Days             Both            $10,000
              Public
             Safety
                          BAIL
HU3318        USBP                  91+ Days             Both                4,408
                        JUMPING
                          BAIL
HU3316        USBP                  91+ Days             Both                4,408
                        JUMPING
                          BAIL
HU3350        USBP                  91+ Days             Both                4,408
                        JUMPING
                          BAIL
HU3315        USBP                 31-90 Days            Both                3,306
                        JUMPING
                          BAIL
HU3284        USBP                 31-90 Days            Both                3,306
                        JUMPING
                          BAIL
HU3341        USBP                 31-90 Days            Both                3,306
                        JUMPING
Total                                                                   $33,142



                     CASES REIMBURSED IN THE WRONG QUARTER
                            QUARTER        DISPOSITION           AMOUNT
             CASE NO.
                           SUBMITTED          DATE              QUESTIONED
            HU-2888        FY03-1&2         9/16/2002              $5,000
            CR-6985          FY05-2         8/10/2004               4,408
            CR-7122          FY06-3        12/13/2005               4,309
            CR-7280          FY07-3        10/10/2006               2,452
          Total                                                  $16,168


                         MISSING CASE FILE INFORMATION
        CASE NO.     INITIATING   PROSECUTION     REIMBURSEME        AMOUNT
                       AGENCY     ONLY OR BOTH    NT CATEGORY       QUESTIONED
      HU-946             N/A       Pros. Only      91+ Days           $5,000
     HU-3716            HCSO          Both         91+ Days            5,726
    Total                                                           $10,726




                                       - 19 ­
                                                             APPENDIX III


                     EXCESS DETENTION REIMBURSEMENTS
                QUARTER      REIMBURSEMENT   PROSECUTION      AMOUNT
CASE NO.
               SUBMITTED        CATEGORY     ONLY OR BOTH    QUESTIONED
HU4046-C         FY08-3         4/23/2008     5/15/2008           $220
HU4046-A         FY08-3         4/23/2008     5/15/2008            220
 HU4037          FY08-3         3/27/2008     6/16/2008            810
HU3946-A         FY08-3         8/29/2007     5/14/2008          2,590
 HU3986          FY08-3        11/17/2007     4/10/2008             60
 HU3984          FY08-3        11/20/2007     4/17/2008            280
HU2711-A         FY08-3          8/3/2001     4/17/2008             30
 HU3996          FY08-3        10/21/2007     6/16/2008             10
 HU4011          FY08-3         1/20/2008     6/16/2008            240
 HU3747          FY08-3         2/28/2007     6/26/2008             10
HU3988-A         FY08-3         6/10/2007     6/26/2008             10
HU3988-B         FY08-3         6/10/2007     6/26/2008             10
 HU4004          FY08-3        12/27/2007     6/26/2008             10
 HU4033          FY08-3        12/31/2007     6/26/2008             20
 HU3912          FY08-3         4/3/2007      6/26/2008             20
HU4022-A         FY08-3         2/15/2008     6/16/2008             20
HU4022-B         FY08-3         2/15/2008     6/16/2008             20
 CR-7582         FY08-3          9/1/2007     5/14/2008             10
 CR-7583         FY08-3          9/1/2007     5/14/2008             10
 CR-7587         FY08-3          7/1/2007     5/14/2008            630
 CR-7612         FY08-3         9/17/2007     6/18/2008             10
HU4041-B         FY08-4         1/28/2008      7/7/2008             40
 HU4021          FY08-4          2/1/2008     8/11/2008            100
 HU4010          FY08-4         1/13/2008     8/11/2008             10
HU4043-A         FY08-4        12/21/2007     9/21/2008             20
 HU3998          FY08-4         12/6/2007     9/21/2008             10
 CR-7599         FY08-4         6/17/2007     7/16/2008             20
Total                                                          $5,440



            CASE REIMBURSED FOR INCARCERATION AFTER DISPOSITION
 CASE NO.      DISPOSITION   BOOKING DATE    REIMBURSEMENT    AMOUNT
                  DATE                          CATEGORY     QUESTIONED
 HU3704         3/12/2007       12/6/07         91+ Days        $2,622
Total                                                          $2,622




                                    - 20 ­
                                                        APPENDIX III


                        EXTRA DAYS REIMBURSED
 CASE NO.    QUARTER     REIMBURSEMENT   CASE LENGTH    AMOUNT
            SUBMITTED       CATEGORY       (DAYS)      QUESTIONED
  HU-2892    FY02-All      31-90 Days         29          $1,250
  HU-2891    FY02-All       91+ Days          65           1,250
Total                                                    $2,500




                                - 21 ­
                                                        APPENDIX IV


                   HUDSPETH COUNTY
             DETAILS OF FUNDS TO BETTER USE

              CASES WITHOUT 24 HOUR DETENTION PERIOD
                                 BOOKING     QUARTER      AMOUNT
CASE NO.    DISPOSITION DATE
                                   DATE     SUBMITTED    QUESTIONED
HU-3723-A     10/13/2008        1/10/2007     FY09-1         $72
 HU-4111        4/6/2009        12/4/2008     FY09-3           72
 HU-4083      12/2/2008         8/22/2008     FY09-1           36
 HU-4068      12/2/2008         7/22/2008     FY09-1           36
HU-4023-B     11/20/2008        2/20/2008     FY09-1           36
 HU-3994      10/16/2008        9/11/2007     FY09-1           36
 HU-2722      12/2/2008        10/31/2001     FY09-1           36
HU-4085-A     1/29/2009        6/29/2008      FY09-2           36
HU-4085-B      1/29/2009        6/29/2008     FY09-2           36
 HU-3999       2/20/2009       11/21/2007     FY09-2           36
 HU-4086       3/19/2009        7/25/2008     FY09-2           36
 HU-4102       3/16/2009        11/7/2008     FY09-2           36
 CR-7686       3/17/2009         3/8/2008     FY09-2           36
 HU-4017        6/1/2009         6/4/2007     FY09-3           36
 HU-4090        6/9/2009       9/17/2008      FY09-3           36
 CR-7318       5/11/2009         4/3/2006     FY09-3           36
 HU-4160      9/21/2009        6/29/2009      FY09-4           36
HU-4153-B      9/17/2009        9/17/2009     FY09-4           36
 HU-4145      9/21/2009         4/8/2009      FY09-4           36
 HU-4124      9/17/2009        2/25/2009      FY09-4           36
HU-4039-A       9/9/2009        2/26/2008     FY09-4           36
 CR-7751       8/24/2009        7/13/2008     FY09-4           36
 CR-7758      8/24/2009        7/13/2008      FY09-4           36
Total                                                       $900




                                - 22 ­
                                                                                APPENDIX V



   HUDSPETH COUNTY RESPONSE TO THE DRAFT REPORT



                                   YOLANDA P. ESPARZA

                               HUDSPETH COUNTY AUDITOR

                                       P.O. BOX 279

                               SIERRA BLANCA, TEXAS 79851

                                   PHONE: (915) 369-4147

                                    FAX: (915) 369-2407




October 26, 2010



David M. Sheeren
Regional Audit Manager
(OIG) Denver Regional Audit Office
1120 Lincoln, Suite 1500
Denver, Colorado 80203

Dear Mr. Sheeren:

   We would very much like to work with OJP to have the opportunity to address each
individual recommendation and remedy by providing documentation necessary to support
corrective action for cost allowed.

1. On recommendation number one, we will see that a request for reimbursement is not
submitted for a defendant for more than one crime at one time. Our information comes
from the District Attorneys office in El Paso, Texas. They obviously were not aware of
this rule, and neither were we.

2. On recommendation number two, we will not submit a request for reimbursement in the
future on any person that does not meet the pre-trial standard. We are going to check the Jail
records to see if each of the 70 cases actually did not meet the pre-trial detention period.

3. On recommendation number three, we will furnish documentation showing that these seven
cases were Federal Initiated Cases, but a misunderstanding of the coding used by the District
Attorney’s office was misleading to the Auditors.

4. On recommendation number four, we will furnish documentation showing for which quarter
these 4 cases should have been reimbursed. In doing so, please give us credit on the correct
quarter once we send the information.




                                             - 23 ­
                                                                                  APPENDIX V

5. On recommendation number five, we are checking documents from our county jail to support
allowable cost for these two cases.

6. On recommendation number six, we have submitted a request to the Federal Officials to
upgrade the per diem paid to Hudspeth County in light of the actual cost being a concern. The
figures have remained at $36.00 per day as of today, while our neighbor in Presidio County has
been approved for $60.00 per day per inmate. The local prison (Emerald Prison) per diem is
$60.00 per day by the U.S. Marshals, (copy attached), and they have requested an upgrade.
We can not actually house and take care of prisoners for $36.00 per day. We are taking a
tremendous lose.

7. On recommendation number seven, we will check if miscoding occurred or
misinformation was provided. We will check the master file listing to determined if the number
reported was correct. We may need to provide documentation for you to tell us if these cases
are allowable.

8. On recommendation number eight, we believe that the dates were reversed by mistake on the
District Attorneys report. We will obtain the correct records from the jail to provide
documentation of the correct dates.

9. On recommendation number nine, we will get the correct dates so as to put the two cases in
the correct category.

10. On recommendation number ten, we will double check our records on the 23 cases that you
are saying did not qualify for pre-trial detention and we will send in the correction if necessary
before payment is issued.

   Unfortunately, we have to travel two hours one way to obtain documents from the District
Attorneys office in El Paso, Texas. Once we obtain them we will forward the rest of the
supporting documents to you. We look forward to working with you in resolving the
recommendations.

Sincerely,

Yolanda P. Esparza
Hudspeth County Auditor

cc: Linda Taylor




                                              - 24 ­
                                                                              APPENDIX VI



                OJP RESPONSE TO THE DRAFT REPORT





November 5, 2010


MEMORANDUM TO:               David M. Sheeren
                             Regional Audit Manager
                             Office of the Inspector General
                             Denver Regional Audit Office

                               /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Office of Justice Programs,
                             Southwest Border Prosecution Initiative Funding Received by
                             Hudspeth County, Texas

This memorandum is in response to your correspondence, dated October 6, 2010, transmitting
the subject draft audit report for Hudspeth County (County). We consider the subject report
resolved and request written acceptance of this action from your office.

The report contains 10 recommendations, $479,595 in questioned costs, and $900 in funds put to
better use. The following is the Office of Justice Programs’ (OJP) analysis of the draft audit
report recommendations. For ease of review, the recommendations are restated in bold and are
followed by our response.

1.	    We recommend that OJP remedy the $240,574 in questioned costs received by
       Hudspeth County for 37 cases that were investigated or prosecuted during
       concurrent periods of time with cases involving the same defendant that were also
       submitted for reimbursement.

       We agree with the recommendation. We will coordinate with the County to remedy the
       $240,574 in questioned costs related to the 37 cases that were investigated or prosecuted



                                            - 25 ­
                                                                              APPENDIX VI

      during concurrent periods of time with cases involving the same defendant that were also
      submitted for reimbursement.

2.	   We recommend that OJP remedy the $163,104 in questioned costs received by
      Hudspeth County for 70 cases that were submitted under both the prosecution and
      pre-trial detention category that did not meet the requirements for pre-trial
      detention.

      We agree with the recommendation. We will coordinate with the County to remedy the
      $163,104 in questioned costs related to the 70 cases that were submitted under both the
      prosecution and pre-trial detention category that did not meet the requirements for pre­
      trial detention.

3.	   We recommend that OJP remedy the $33,142 in questioned costs received by
      Hudspeth County for seven cases that were not Federally initiated.

      We agree with the recommendation. We will coordinate with the County to remedy the
      $33,142 in questioned costs received by the County for seven cases that were not
      Federally initiated.

4.	   We recommend that OJP remedy the $16,168 in questioned costs received by
      Hudspeth County for four cases that were submitted in the wrong quarter.

      We agree with the recommendation. We will coordinate with the County to obtain
      adequate documentation to demonstrate that the $16,168 received by the County for the
      four cases submitted in the wrong quarter were otherwise allowable. On previous cases,
      OJP has not required funds to be returned for cases submitted in the wrong quarter, if all
      of the other case requirements were met.

5.	   We recommend that OJP remedy the $10,726 in questioned costs received by
      Hudspeth County for two cases for which supporting case information could not be
      located.

      We agree with the recommendation. We will coordinate with the County to remedy the
      $10,726 in questioned costs received by the County for two cases for which supporting
      case information could not be located.

6.	   We recommend that OJP remedy the $5,440 in questioned costs received by
      Hudspeth County for 27 cases, for which the detention rate claim exceeded the
      approved Federal detention rate for the County.

      We agree with the recommendation. We will coordinate with the County to remedy the
      $5,440 in questioned costs related to the 27 cases for which the detention rate claim
      exceeded the approved Federal detention rate for the County.




                                            - 26 ­
                                                                             APPENDIX VI


7.	    We recommend that OJP remedy the $5,318 in questioned costs received by
       Hudspeth County related to the case claimed that was not supported by the
       master case list.

       We agree with the recommendation. We will coordinate with the County to remedy the
       $5,318 in questioned costs related to the case claimed that was not supported by the
       master case list.

8.	    We recommend that OJP remedy the $2,622 in questioned costs received by
       Hudspeth County for one case that included incarceration costs after the case was
       disposed.

       We agree with the recommendation. We will coordinate with the County to remedy the
       $2,622 in questioned costs received by the County for one case that included
       incarceration costs after the case was disposed.

9.	    We recommend that OJP remedy the $2,500 in questioned costs received by
       Hudspeth County for two cases that were erroneously submitted in the wrong
       reimbursement category.

       We agree with the recommendation. We will coordinate with the County to remedy the
       $2,500 in questioned costs received by the County for two cases that were erroneously
       submitted in the wrong reimbursement category.

10.	   We recommend that OJP remedy the $900 in funds to better use requested, but not
       yet received by Hudspeth County for 23 cases which were claimed under both the
       prosecution and pre-trial detention category that did not meet the requirements for
       pre-trial detention.

       We agree with the recommendation. We will coordinate with the County to remedy the
       $900 in funds to better use requested, but not yet received by the County, for 23 cases
       which were claimed under both the prosecution and pre-trial detention category that did
       not meet the requirements for pre-trial detention.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:	   Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       James H. Burch, II

       Acting Director

       Bureau of Justice Assistance





                                            - 27 ­
                                        APPENDIX VI


Jill Young
Division Chief
Bureau of Justice Assistance

Amanda LoCicero
Audit Liaison
Bureau of Justice Assistance

Joseph Husted
Program Manager
Bureau of Justice Assistance

Richard Theis
Assistant Director
Audit Liaison Group
Justice Management Division

OJP Executive Secretariat
Control Number 20101974




                               - 28 ­
                                                            APPENDIX VII


             ANALYSIS AND SUMMARY OF ACTIONS

                NECESSARY TO CLOSE REPORT



1.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP remedied the $240,574 in
      questioned costs received by Hudspeth County for 37 cases that were
      investigated or prosecuted during concurrent periods of time with
      cases involving the same defendant that were also submitted for
      reimbursement.

2.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $163,104 in
      questioned costs received by Hudspeth County for 70 cases that were
      submitted under the both prosecution and pre-trial detention category
      that did not meet the requirements for pre-trial detention.

3.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $33,142 in
      questioned costs received by Hudspeth County for seven cases that
      were not federally initiated.

4.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $16,168 in
      questioned costs received by Hudspeth County for four cases that were
      submitted in the wrong quarter.

5.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $10,726 in
      questioned costs received by Hudspeth County for two cases for which
      supporting case information could not be located.

6.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $5,440 in
      questioned costs received by Hudspeth County for 27 cases for which
      the detention rate claim exceeded the approved federal detention rate
      for the county.

7.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $5,318 in
      questioned costs received by Hudspeth County related to the case
      claimed that was not supported by the master case list.




                                   - 29 ­
                                                           APPENDIX VII



8.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $2,622 in
      questioned costs received by Hudspeth County for one case that
      included incarceration costs after the case was disposed.

9.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $2,500 in
      questioned costs received by Hudspeth County for two cases that were
      erroneously submitted in the wrong reimbursement category.

10.	 Resolved. This recommendation can be closed when we receive
     documentation supporting that OJP has remedied the $900 in funds to
     better use requested, but not yet received by Hudspeth County for
     23 cases that were claimed under the both prosecution and pre-trial
     detention category that did not meet the requirements for pre-trial
     detention.




                                  - 30 ­
